<html>
<title> - OVERSIGHT OF FIRSTNET AND THE ADVANCEMENT OF PUBLIC SAFETY WIRELESS COMMUNICATIONS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






  OVERSIGHT OF FIRSTNET AND THE ADVANCEMENT OF PUBLIC SAFETY WIRELESS 
                             COMMUNICATIONS

=======================================================================



                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                    
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 21, 2013

                               __________

                           Serial No. 113-103


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                                    ______

                      U.S. GOVERNMENT PRINTING OFFICE 

88-102 PDF                   WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001              


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 7_____

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
LEE TERRY, Nebraska                  DORIS O. MATSUI, California
MIKE ROGERS, Michigan                BRUCE L. BRALEY, Iowa
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             BEN RAY LUJAN, New Mexico
LEONARD LANCE, New Jersey            JOHN D. DINGELL, Michigan
BRETT GUTHRIE, Kentucky              FRANK PALLONE, Jr., New Jersey
CORY GARDNER, Colorado               BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             JIM MATHESON, Utah
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Ben Ray Lujan, a Representative in Congress from the State 
  of New Mexico, opening statement...............................     5
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     6
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................     8
Hon. Gregg Harper, a Representative in Congress from the State of 
  Mississippi, prepared statement................................    75

                               Witnesses

Samuel Ginn, Chairman, First Responder Network Authority Board...     9
    Prepared statement...........................................    11
    Answers to submitted questions...............................    77
David S. Turetsky, Chief, Public Safety and Homeland Security 
  Bureau, Federal Communications Commission......................    24
    Prepared statement...........................................    26
    Answers to submitted questions...............................    91
Darryl Ackley, Secretary, New Mexico Department of Information 
  Technology.....................................................    32
    Prepared statement...........................................    34
    Answers to submitted questions...............................    94
Stu Davis, Assistant Director, Ohio Department of Administrative 
  Services.......................................................    43
    Prepared statement...........................................    46
    Answers to submitted questions...............................    98
Dereck Orr, Program Manager, Public Safety Communications 
  Research Program, National Institute of Standards and 
  Technology.....................................................    50
    Prepared statement...........................................    52
    Answers to submitted questions...............................   102
Dennis Martinez, Chief Technology Officer, RF Communications 
  Division, Harris Corporation...................................    58
    Prepared statement...........................................    60
    Answers to submitted questions...............................   110

 
  OVERSIGHT OF FIRSTNET AND THE ADVANCEMENT OF PUBLIC SAFETY WIRELESS 
                             COMMUNICATIONS

                              ----------                              


                      THURSDAY, NOVEMBER 21, 2013

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:31 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Shimkus, 
Blackburn, Lance, Gardner, Long, Eshoo, Matsui, Lujan, and 
Waxman (ex officio).
    Staff present: Ray Baum, Senior Policy Advisor/Director of 
Coalitions; Andy Duberstein, Deputy Press Secretary; Kelsey 
Guyselman, Counsel, Communications and Technology; Grace Koh, 
Counsel, Communications and Technology; David Redl, Counsel, 
Communications and Technology; Charlotte Savercool, Legislative 
Coordinator; Tom Wilbur, Digital Media Advisor; Gene Fullano, 
FCC Detailee; Shawn Chang, Democratic Chief Counsel for 
Communications and Technology; Margaret McCarthy, Democratic 
Professional Staff Member; Kara van Stralen, Democratic Policy 
Analyst; and Patrick Donovan, Democratic FCC Detailee.
    Mr. Walden. I am going to call to order the Subcommittee on 
Communications and Technology. I want to thank our witnesses 
for being here today. Just at the outset, I would tell you that 
they expect votes on the House floor at about 10:50, or 
thereabouts, so I think we will get through our opening 
statements. I doubt we get to your presentations initially, but 
then we are going to come back right after those votes and 
proceed. And so I will start.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Last March, the subcommittee met to conduct our first 
oversight hearing of the newly formed First Responder Network 
Authority, or FirstNet. FirstNet's charge of building a 
nationwide, interoperable, public safety broadband network from 
Washington, DC, under the statute was crafted by our friends in 
the Senate.
    As I noted then, the structure of FirstNet was not my 
preferred approach to solving our Nation's public safety 
communications challenges. I favored construction from the 
bottom up, not the top down, with certain minimum 
interoperability requirements set by the Federal government, 
and commercial providers running the network, in partnership 
with the States. I cautioned then that this approach is not 
guaranteed by the legislation as passed, but that FirstNet 
could choose to adopt such approach.
    While there is significant work to be done to ensure the 
States are partners, not customers, of FirstNet, it appears 
that FirstNet has made progress in reaching out to State, 
tribal, and local jurisdictions along these lines. This is a 
significant undertaking, rivaling the network deployments of 
our largest national wireless carriers. Today's hearing 
reflects the subcommittee's commitment to continued and 
thorough oversight of this important effort, and a dedication 
to ensure that our Nation's public safety users realize the 
benefits, and know the costs, of the State of the art 
communications tools that the law envisions.
    Now, when we met last March, the FirstNet board had only 
recently been assembled. Perhaps because of its infancy, there 
was considerable uncertainty among critical stakeholders with 
regard to how FirstNet was being administered, and how the 
public safety broadband network would be realized. 
Unfortunately, rather than seeing those concerns wane as 
FirstNet has gained its footing, FirstNet finds itself 
embroiled in allegations from within that it lacks 
transparency, and suffers from potential ethical conflicts. As 
a result, FirstNet is currently under investigation by the 
Inspector General of the Department of Commerce. Suffice it to 
say, this is not necessarily a confidence inspiring 
development. But, for all the efforts by FirstNet, much work 
remains to gain the support of the States and the tribes, the 
commercial wireless community, and, most importantly, the first 
responders, who will rely upon FirstNet in life or death 
situations.
    Ultimately FirstNet needs the confidence and cooperation of 
all these groups to realize the standards, economies of scale, 
and potential that FirstNet holds. In order to do so, FirstNet 
must be an informative and cooperative national coordinator of 
the myriad moving parts that comprise the public safety 
community, and do so in short order. Unfortunately, this is 
precisely where FirstNet seems to be struggling.
    This challenge is best exemplified by the fact that no one 
seems to be able to answer the simple question what is 
FirstNet? Is FirstNet going to partner with our national 
wireless providers, or will it be just another commercial 
provider in government clothing? Has FirstNet modeled a cost 
for these options? Are States expected to give FirstNet their 
existing assets as an up-front payment for participation? What 
is FirstNet going to charge local first responders for use of 
the network?
    Now, these are all questions that we in Congress have been 
asked as FirstNet struggles to find its way. And while a few 
jurisdictions have managed to negotiate lease agreements with 
FirstNet, the fundamental issues regarding cost, coverage, and 
timing remain unexplained, as do the processes contemplated for 
the exercise of a State's option to participate in the network. 
Now, left unresolved, the promise that we made to first 
responders to overcome once and for all the lack of 
interoperable communications is undermined, and the prospect of 
FirstNet's success diminished. We cannot afford to have this 
effort fail to produce a network, or worse, have the network 
deployed, and then have no one show up to use it.
    Today we are asking our witnesses what is working, what is 
not working, and how can we help? We will hear from the 
chairman of the FirstNet Board, who can provide an update on 
progress in the deployment of the Public Safety Broadband 
Network, address these fundamental issues, and hopefully allay 
our concerns about the openness and transparency of FirstNet's 
processes. We will also hear from States, the chief of the 
FCC's Public Safety and Homeland Security Bureau, NIST, whose 
good work with NTIA on the Public Safety Communications 
research program is helping answer some fundamental technology 
questions for FirstNet, and a private sector representative who 
can provide their perspectives on FirstNet's progress, insights 
into their respective roles, and share ideas about what 
FirstNet can do better to get the job done.
    And because FirstNet will not initially provide mission 
critical voice capability, and public safety will continue to 
rely on traditional land mobile radio systems for voice 
communications, we will take the opportunity to better 
understand how the development of the new emergency 
communications technologies will be used together with 
traditional public safety communications until FirstNet is 
capable of addressing public safety's mission critical voice 
needs.
    So I am looking forward to hearing from our witnesses today 
to address these issues we have raised, and hope to leave with 
a higher level of comfort with regard to FirstNet's progress 
and confidence in the manner in which it is conducting its 
business. That is the purpose of this hearing. I thank the 
witnesses for being here, and now I would yield to the 
gentlelady from California, Ms. Matsui, for an opening 
statement.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Last March the subcommittee met to conduct our first 
oversight hearing of the newly formed First Responder Network 
Authority, or FirstNet. FirstNet's charge of building a 
nationwide interoperable public safety broadband network from 
Washington, DC, under the statute was crafted by our friends in 
the Senate. As I noted then, the structure of FirstNet was not 
my preferred approach to solving our Nation's public safety 
communications challenges. I favored construction from the 
bottom up, not the top down, with certain minimum 
interoperability requirements set by the Federal Government and 
commercial providers running the network in partnership with 
the States. I cautioned then that this approach is not 
guaranteed by the legislation as passed, but that FirstNet 
could choose to adopt such an approach. While there is 
significant work to be done to ensure that the States are 
partners, not customers, of FirstNet, it appears that FirstNet 
has made progress in reaching out to State, tribal, and local 
jurisdictions along these lines.
    This is a significant undertaking, rivaling the network 
deployments of our largest national wireless carriers. Today's 
hearing reflects the subcommittee's commitment to continued and 
thorough oversight of this effort and a dedication to ensure 
that our Nation's public safety users realize the benefits and 
know the costs of the state-of-the-art communications tools the 
law envisions.
    When we met last March, the FirstNet board had only 
recently been assembled. Perhaps because of its infancy, there 
was considerable uncertainty among critical stakeholders with 
regard to how FirstNet was being administered and how the 
public safety broadband network would be realized. 
Unfortunately, rather than seeing those concerns wane as 
FirstNet has gained its footing, FirstNet finds itself 
embroiled in allegations from within that it lacks transparency 
and suffers from potential ethical conflicts. As a result, 
FirstNet is currently under investigation by the Inspector 
General of the Department of Commerce. Suffice it to say, this 
is not a confidence inspiring development.
    But for all the efforts by FirstNet, much work remains to 
gain the support of the States and the tribes, the commercial 
wireless community, and most importantly the first responders 
who will rely on FirstNet in life or death situations. 
Ultimately FirstNet needs the confidence and cooperation of all 
of these groups to realize the standards, economies of scale, 
and potential that FirstNet holds. In order to do so, FirstNet 
must be an informative and cooperative national coordinator of 
the myriad moving parts that comprise the public safety 
community, and do so in short order. Unfortunately, this is 
precisely where FirstNet seems tobe struggling.
    This challenge is best exemplified by the fact that no one 
seems to be able to answer the simple question: ``What is 
FirstNet?'' Is FirstNet going to partner with our national 
wireless providers or will it be just another commercial 
provider in government clothing? Has FirstNet modeled the costs 
for these options? Are States expected to give FirstNet their 
existing assets as an up front payment for participation? What 
is FirstNet going to charge local first responders for use of 
the network? These are all questions that we in Congress have 
been asked as FirstNet struggles to find its way. And while a 
few jurisdictions have managed to negotiate lease agreements 
with FirstNet, the fundamental issues regarding cost, coverage 
and timing remain unexplained, as do the processes contemplated 
for the exercise of a State's options to participate in the 
network. Left unresolved, the promise that we made to first 
responders to overcome once and for all the lack of 
interoperable communications is undermined, and the prospect of 
FirstNet's success diminished. We cannot afford to have this 
effort fail to produce a network, or worse, have this network 
deployed and then have no one show up to use it.
    Today, we are asking our witnesses ``what is working, what 
isn't working, and how can we help?'' We will hear from the 
chairman of the FirstNet Board, who can provide an update on 
progress in the deployment of the public safety broadband 
network, address these fundamental issues, and hopefully allay 
our concerns about the openness and transparency of FirstNet's 
processes. We will also hear from States, the chief of the 
FCC's Public Safety and Homeland Security Bureau, NIST--whose 
good work with NTIA on the Public Safety Communications 
Research program is helping answer some fundamental technology 
questions for FirstNet, and a private sector representative who 
can provide their perspectives on FirstNet's progress, insights 
into their respective roles, and share ideas about what 
FirstNet can do better to get the job done. And because 
FirstNet will not initially provide mission critical voice 
capability and public safety will continue to rely on 
traditional land mobile radio systems for voice 
communications,we will take this opportunity to better 
understand how the development of new emergencycommunications 
technologies will be used together with traditional public 
safety communications until FirstNet is capable of addressing 
public safety's mission-critical voice needs.
    I am looking forward to hearing from our witnesses today 
and hope to leave with a higher level of comfort with regard to 
FirstNet's progress and confidence in the manner in which it is 
conducting its business.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you very much, Mr. Chairman. I am here in 
place of Ranking Member Eshoo, who will be arriving shortly. 
But I really want to thank everyone for being here today. I 
think it is an important issue, and I am glad that we are 
looking at the progress that we have made here.
    FirstNet is a startup, let us not forget that, and like 
every startup, it has had its growing pains. But since our last 
hearing, we have seen some progress from FirstNet. FirstNet has 
hit some milestones, has established a budget, and hired staff. 
Moving forward we need to work together in a bipartisan manner 
to ensure its success. If we fail, then we jeopardize the 
entire system and put America's first responders at risk. It is 
as simple as that.
    Throughout the debate on the spectrum law, I remained 
focused on the need to responsibly govern any nationwide public 
safety interoperability network. I believe governance is 
paramount. It is critical to ensure America's first responders 
have an efficient and effective interoperability network. It is 
also important to ensure we spend taxpayer money wisely. 
Despite some initial concerns about the role of States taking a 
back seat, I am pleased that the FirstNet board took this issue 
head on, and developed a strong, coordinated relationship with 
the States.
    The FirstNet board has significant responsibility. I 
believe the experienced individuals on the board are capable 
and qualified to ensure our primary goal of achieving a 
nationwide level of interoperability for our Nation's first 
responders, while ensuring fiscal responsibility. It is my hope 
that we can work together in a bipartisan manner to achieve 
success for America's first responders.
    And I yield time to Mr. Lujan.

 OPENING STATEMENT OF HON. BEN RAY LUJAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Lujan. Thank you very much to our Ranking Member 
Matsui. And, Mr. Chairman, this is an important hearing that we 
are having today. Quite an exciting time, as we talk about the 
ability to change the way that we can take advantage of modern 
technology to ensure that first responders have the tools that 
they need.
    I was sharing with my legislative director, Andrew Jones, a 
few minutes ago that, while I sat on the New Mexico Public 
Regulatory Commission, which is the equivalent of Public 
Utility Commissions across the country, we were very unique in 
that we had the State fire marshal under our jurisdiction 
attached to a Department of Insurance, again, a very unique 
relationship that was created.
    But in those conversations, getting to speak specifically 
to firefighters, with the tragic loss that we have recently had 
as well with the firefighters in Arizona, who put out many 
fires in New Mexico, and also those that were from New Mexico, 
this technology that could be on the body, so that there are 
eyes and ears around them, monitoring vital signs with them, 
whether they are firefighters, police officers, or any of our 
emergency responders, for that matter, is something that I hope 
that we can get correct here so that we can keep more people 
alive, keep them safer, and truly improve our abilities to make 
sure that communities are safer, for that matter, so I am 
really excited about this.
    I think it is intriguing to note that many of the States as 
well have benefitted from investments in these programs with 
interoperable systems as a result of the Recovery Act. I know 
that there is a difference of opinion sometimes with benefits, 
but I hope that this is one that we can agree on, that this 
investment was critically important, and that, as we have seen 
roll out in many States, we can point back to the importance of 
investment in infrastructure.
    So, with that, I yield back the balance of my time, and I 
thank the chairman, the ranking member very much again for this 
important hearing.
    Mr. Walden. Gentleman yields back the balance of his time, 
and I appreciate the comments.
    We will now turn to the vice chair of the full committee, 
gentlelady from Tennessee, Ms. Blackburn.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. I appreciate all 
of our witnesses being here, and the opportunity to have the 
hearing, and to do some oversight on FirstNet, and look at how 
it is standing up, and, due to the passage of the Spectrum Act, 
we all view public safety as an important Federal Government 
priority, but we need to do it efficiently, and effectively, 
and with a little bit of thought toward the price tag, since it 
is all taxpayer money.
    As we have seen with the botched rollout of the Obamacare 
site, government entities don't have all the answers when it 
comes to new technologies, and rolling out a nationwide 
interoperable public safety network is going to require 
significant consultation and help from the private sector. The 
decisions that are made today will determine the success or 
failure of FirstNet in its framework. That is why we need 
benchmarks, status updates, strong leadership that is focused, 
and States need to be given resources to manage their 
operations, if they have found a better way.
    So I thank you all for being here, and at this time I will 
yield to the gentleman from Ohio, Mr. Latta, the balance of the 
time.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. I thank the gentlelady for yielding. And, Mr. 
Chairman, thank you very much for holding this hearing today. 
And I appreciate our distinguished witnesses for appearing to 
testify today.
    A robust public safety communications network is critical 
to protecting the lives and safety of the American people. We 
have an obligation to ensure that the implementation of 
FirstNet is successful and facilitates the communication needs 
of first responders that bravely risk their lives for ours. 
While I am encouraged by some of the initial progress that 
FirstNet has made in the development of the nationwide network, 
I have concerns that FirstNet is not sufficiently engaging with 
States throughout the process.
    I look forward to hearing the testimony of our witnesses 
today, as well as the plans to ensure that FirstNet is closely 
consulting with States, and that States have a clearly defined 
role in understanding the responsibility and the terms of the 
planning, development, funding, and implementation of the 
broadband network.
    I thank the chairman, and I yield back.
    Mr. Walden. Anyone else on the Republican side? Mr. Long, 
do you have any opening statement? OK. Gentleman yields back 
the balance of his time. Chair now recognizes the chairman 
emeritus of the committee, the ranking Democrat, Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. Congress 
came together to enact the Public Safety Inspector Act last 
year, delivering on one of the last remaining recommendations 
from the 9/11 Commission, to create a nationwide interoperable 
public safety broadband network for first responders. To 
implement this long overdue mission, Congress created the First 
Responder Network Authority, or FirstNet. Today, we are 
conducting our second FirstNet oversight hearing in less than 8 
months, demonstrating the committee's strong bipartisan 
interest in ensuring this important job is done right from the 
very start.
    And I would like to thank Chairman Ginn of the FirstNet 
board for testifying again, and updating us on FirstNet's 
operations and activities. I would also like to join my 
colleagues in thanking Mr. Turetsky for his service as chief of 
the Public Safety and Homeland Security Bureau, and wishing him 
the best of luck in his new role at the FCC.
    Given the magnitude of this project, it is critical that 
FirstNet and its partners operate efficiently and innovate 
aggressively. To meet this challenge, I believe FirstNet is 
already moving in the right direction by strengthening its 
operations through a sound business plan, a growing, talented 
staff, and a fiscally prudent budget. The Board is now 
supported by a management team with significant experience in 
the wireless industry, public safety communications, and 
financial management. FirstNet is putting its expertise to use, 
listening to the feedback of various stakeholders, and engaging 
in extensive outreach to the public safety and governmental 
communities, as well as vendors, carriers, and technology 
firms.
    From a technical perspective, FirstNet is laying the 
foundation for the network architecture through multiple 
requests for information that seek input from industry and 
other stakeholders. The Public Safety and Spectrum Act has also 
tasked the National Institute of Standards and Technology, or 
NIST, with conducting research, and assisting with the 
development of critical standards and technologies to advance 
the types of public safety communications to be supported by 
FirstNet. And I look forward to hearing how NIST has been 
working with FirstNet to address the technical challenges of 
standing up the network.
    One of the many challenges FirstNet has grappled with since 
our last hearing is how to address the jurisdictions that 
received funding for public safety networks through the 
Broadband Technology Opportunities Program, or BTOP. I am 
especially pleased that FirstNet reached an agreement with the 
Los Angeles Regional Interoperable Communications System 
Authority on its BTOP grant. I know reaching such a complex 
agreement was not easy, and I appreciate the tenacious good 
faith efforts exhibited by all parties to the agreement.
    The LARICS project will not only benefit first respondents 
of the L.A. region, it will also provide FirstNet with an 
opportunity to gather information and share lessons learned 
with other projects. The State of New Mexico is also moving 
forward with its BTOP grant, and I want to thank Dr. Darryl 
Ackley, Chief Information Officer of the State of New Mexico, 
for testifying today to discuss his State's agreement with 
FirstNet.
    And, finally, I appreciate that FirstNet has acted promptly 
to address certain procurement and ethics related matters. I 
look forward to reviewing the findings of the Department of 
Commerce, Office of Inspector General when they have completed 
their audit. In conducting oversight of this fledgling 
organization, we all share a common interest to protect public 
investments and guard against waste, fraud, and abuse that may 
threaten the viability of the network. I hope it will continue 
to work in a bipartisan way to ensure FirstNet's success. I 
thank all the witnesses for testifying. I look forward to your 
testimony, and I want to apologize in advance that I have a 
conflict, so I won't be able to be here throughout the hearing, 
but I will have a chance to review the testimony, and my staff, 
of course, will remain here, listen to everything that is said, 
and work with you on all of these issues.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Mr. Walden. Do you want to yield your remaining 30 seconds 
to Ms. Eshoo?
    Mr. Waxman. Was I supposed to do that?
    Mr. Walden. Not necessarily, but----
    Mr. Waxman. I yield the balance of my time, and maybe even 
some extra, to Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Waxman, and thank you, Mr. 
Chairman. I just want to say to the witnesses, I apologize for 
being tardy this morning, and I want to thank Congresswoman 
Matsui for sitting in, and I look forward to your testimony. I 
want to salute you, Mr. Ginn, for the work that you are doing. 
I am just so impressed with what has taken place in a short 
period of time on a myriad of issues. So I thank you, and I am 
forgoing the fabulous opening statement that I had for 
everyone, but we will place that in the record. Thank you.
    [The prepared statement of Ms. Eshoo follows:]

                Prepared statement of Hon. Anna G. Eshoo

    Last Congress, this subcommittee achieved a major milestone 
when it laid the groundwork for the first-ever nationwide, 
interoperable public safety broadband network. There were many 
who thought we would never achieve the last remaining 
recommendation of the 9/11 Commission and there are some who 
still have their doubts. Today's hearing is an opportunity to 
hear from FirstNet as well other stakeholders who are directly 
involved in the implementation of FirstNet and make sure we 
remain on track.
    In the eight months since our subcommittee's last oversight 
hearing, significant progress has been made. A General Manager 
has been named; a 2014 budget has been approved; eleven 
technical RFIs have been issued with over 300 responses; the 
FCC has approved technical and operational rules; 54 of 56 
State and local implementation grants have been awarded; and 
FirstNet is well on its way to achieving the goals established 
in the Middle Class Tax Relief and Job Creation Act of 2012.
    But there's no doubt that much more work lies ahead. The 
next 12 months represent a critical phase for FirstNet. To keep 
this project on schedule and on budget, FirstNet must continue 
to leverage the resources of the commercial wireless sector and 
ensure that it conducts a procurement process that is 
transparent, that it's based on non-proprietary standards, and 
promotes competition among software and device manufacturers. I 
have confidence that under the leadership of Sam Ginn, FirstNet 
will fulfill its mission to provide our first responders with a 
state-of-the-art network that is reliable, hardened, redundant 
and secure.
    And finally, while I'm disappointed that the Bay Area's 
public safety project was unable to reach agreement by last 
week's deadline, I support FirstNet's decision to protect 
taxpayer dollars and prevent the use of proprietary technology 
that could ultimately be incompatible with the nationwide 
network. We should learn from both the successes and failures 
of this project and the 6 other BTOP public safety projects and 
ensure these lessons are applied to FirstNet.
    I thank each witness for your commitment to pioneering the 
next generation of public safety communications and I look 
forward to hearing your important testimony today.

    Mr. Walden. I was going to have it framed too, and put on 
the wall alongside mine.
    I want to welcome our witnesses, and thank especially David 
Turetsky, who is the Chief, Public Safety and Homeland Security 
Bureau, Federal Communications Commission. Thanks for your 
service. I understand today is your last day in that role, but 
we appreciate your being here. We will try not to make it your 
worst day in that role. And so we want to thank you for all 
your dedicated years of service.
    And I know Mr. Latta was going to introduce our witness 
from Ohio. If you want to just say some opening remarks about 
him, and then we will get started?
    Mr. Latta. Well, I appreciate that, Mr. Chairman. I want to 
welcome Stu Davis, who is the Chief Information Officer for the 
State of Ohio. You know, Stu has been instrumental in leading 
Ohio's efforts statewide in public safety emergency management 
communication system. He has been a leader in the IT industry, 
and it is an honor to have him here representing the great 
State of Ohio. So welcome, Mr. Davis.
    Mr. Walden. We welcome all of our witnesses, and we will 
start now with the man in charge, who is undertaken this 
incredibly challenging task, and put a lot of effort into it, 
no doubt, Mr. Sam Ginn, who is the Chairman of the First 
Responder Network Authority. Sam, thank you for being here. 
Thanks for your interaction with the subcommittee, and your 
service for the country, and we look forward to your statement, 
sir.

 STATEMENTS OF SAMUEL GINN, CHAIRMAN, FIRST RESPONDER NETWORK 
 AUTHORITY BOARD; DAVID S. TURETSKY, CHIEF, PUBLIC SAFETY AND 
 HOMELAND SECURITY BUREAU, FEDERAL COMMUNICATIONS COMMISSION; 
DARRYL ACKLEY, SECRETARY, NEW MEXICO DEPARTMENT OF INFORMATION 
 TECHNOLOGY; STU DAVIS, ASSISTANT DIRECTOR, OHIO DEPARTMENT OF 
 ADMINISTRATIVE SERVICES; DERECK ORR, PROGRAM MANAGER, PUBLIC 
 SAFETY COMMUNICATIONS RESEARCH PROGRAM, NATIONAL INSTITUTE OF 
STANDARDS AND TECHNOLOGY; AND DENNIS MARTINEZ, CHIEF TECHNOLOGY 
    OFFICER, RF COMMUNICATIONS DIVISION, HARRIS CORPORATION

                    STATEMENT OF SAMUEL GINN

    Mr. Ginn. Yes. Well, thank you, Mr. Chairman. I really 
appreciate the opportunity. And, Congresswoman Eshoo, it is 
nice to be here, and I hope that this session will be 
productive, and we will be able to answer your questions.
    I would just like to start out by making a couple of 
observations. We can get into all the technical issues around 
outreach and contracts and other things, but I want you to 
understand that we know who holds the responsibility for 
building this network. We do. And I think one of the critical 
issues about this bill is Congress recognized you want to put 
the responsibility on an entity, and that is us. We hold that 
responsibility, and we hold it with an attitude that we can get 
this network built. So I think we have to start there.
    I think the other thing that we have to recognize is this 
is a large, complex project, enormous scale, enormous technical 
issues. Critical issues surround outreach to the customers, and 
I must tell you that we understand if we don't build this 
system to meet the needs of public safety, it will not be 
successful. I think principle one is we know we have to do 
that, and in the testimony we talk about all kind of outreach, 
and things that we are doing to understand the requirements of 
public safety, and that information is being filtered in to the 
technical organization as we design the system.
    So we will have time to get into those issues, but I don't 
want us to miss a larger point, and this is it. When we build 
this network, and we will build this network, it is going to 
revolutionize public safety in ways that we don't even 
understand. It is like most revolutions. When they start out, 
you know things are going to be different. But when this 
network is in place, we are going to revolutionize public 
safety.
    Let me give you an analogy, and a simple one. I want you to 
think back, when you got your first cell phone, and how you 
used it. And now I want you to think back, given the 
applications that are available for you to download, how has it 
affected your day to day life? And I would say significantly. 
And the point I want to make to you is, when this network goes 
in place, we will see the innovation and creativity of public 
safety all across the country, where they step up and solve 
local issues, local situations, that basically lower their 
costs, or serve the public better, or increase their own 
safety.
    So I don't want us to lose the larger point in this 
conversation, simply to say that we are going to get this done, 
and when we do, I think there will be a tremendous advantage 
not only to public safety, but to citizens of the country, and 
all of us who are worried about the cost of providing service 
to the country. And my sense is that we can take them down 
dramatically.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ginn follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. Mr. Ginn, thank you. They have called votes, 
and so I think what we will do, before proceeding with others, 
is go ahead now and recess the committee. We have got a couple 
of votes, I believe, and then we will be back as soon after the 
votes as our members can get here, and we will resume this 
hearing.
    So, with that, we will stand in recess.
    [Recess.]
    Mr. Walden. Call back to order the Subcommittee on 
Communications and Technology, and my apologies that the votes 
went longer than anticipated, but we have returned, and we 
appreciate testimony of Mr. Ginn, and I think we were just 
going to Mr. Turetsky when we had to take a break.
    So, sir, if you will turn on that microphone, pull it 
close, we will resume our hearing.

                 STATEMENT OF DAVID S. TURETSKY

    Mr. Turetsky. Thank you, Chairman, Ranking Member, and 
Vice-Chairman. Thank you for this opportunity to discuss the 
FCC's efforts to support FirstNet through implementation of the 
Middle Class Tax Relief and Job Creation Act of 2012, and our 
ongoing mission to enhance public safety and emergency 
communications.
    Traditional public safety land mobile systems continue to 
provide mission critical voice capability for first responders, 
and will continue to do so for some time, and must be 
maintained. But they cannot support the data rich applications 
that are more and more necessary for public safety personnel to 
do their jobs. In part, that is why Congress passed the Act, to 
create a nationwide interoperable wireless broadband network 
for the public safety community.
    As Chairman Wheeler stated earlier this week, 
communications networks are changing, and fast. And where 
technological change and public safety intersect, there are 
both challenges and opportunities. Congress included some 
specific tasks for the FCC to support FirstNet's mission when 
it passed the Act in February 2012. For example, it directed 
the FCC to establish the technical advisory board for first 
responder interoperability within 30 days. That board then had 
90 days to develop minimum technical requirements to ensure a 
nationwide level of interoperability for the FirstNet network. 
The Commission then had 30 days to approve and transmit the 
recommendations to FirstNet. The Commission met each of these 
deadlines.
    Beyond these specific tasks, the Commission has also worked 
to fulfill its statutory obligation to ``take all actions 
necessary to facilitate the transition'' of the 700 megahertz 
public safety broadband spectrum to FirstNet. Last month the 
Commission unanimously adopted a report and order that 
established the basic technical rules for the FirstNet 
spectrum. Those rules will not only help to accomplish goals 
like preventing interference, but, vitally, will give vendors 
guidance they need to compete and innovate, and enable the 
Commission to certify equipment promptly. These rules are 
supported by the record, and are consistent with comments from 
FirstNet, and others.
    We recognize that we still have more to address under the 
law. For example, in some areas, there are incumbent public 
safety narrow band operations in the FirstNet spectrum which 
pre-date the designation of this spectrum for broadband use. 
The Act also provides that if a State seeks to exercise its 
opt-out rights, the Commission must either approve or 
disapprove the State's opt-out plans, based on specific 
statutory criteria. We intend to provide clear guidance to the 
States and FirstNet on how that will work before States have to 
choose whether to opt out.
    The Commission is also considering how best to implement 
the T-band provisions of the Act, which require future 
relocation of those public safety systems, and auction of the 
vacated spectrum. The Bureau issued a public notice on this, 
and received comments over the summer. We will work with all 
stakeholders and our Federal partners to ensure that these 
transitions occur seamlessly and transparently as much as 
possible.
    Next, the public safety community faces another transition 
to NG-911, which can revolutionize the way the public seeks 
help. This is tightly interwoven with the FirstNet network, as 
NG-911 and the FirstNet network can be complementary components 
of an end to end broadband echo system. Public safety call 
centers will serve as hubs for data from 911 callers, such as 
photos or film clips, which can then be disseminated to first 
responders through the FirstNet network. One step the FCC is 
taking to facilitate the transition to NG-911 is to advance 
Text-to-911. People expect to be able to use the means of 
communications that they use every day to get help, and text 
messaging is part of the fabric of modern life. It also is the 
only practical or safe way to reach out for help in some 
circumstances. Also, wireless calls to 911 increasingly 
originate indoors. Obtaining an accurate location for those 
callers can be a challenge, and we held a major workshop at the 
FCC about that earlier this week.
    Finally, I want to mention the successful use of wireless 
emergency alerts to warn the public of emergencies. Just this 
past weekend, mobile users in the path of tornadoes in Illinois 
received warnings from the National Weather Service sent via 
the Wireless Emergency Alert System. Reports are that this 
helped some people get to safety before the tornadoes struck. 
Since implementation in the summer of 2012, WEA, as we call it, 
warnings have helped to recover kidnapped children, evacuate 
areas during Superstorm Sandy, and otherwise alert people to 
get to safety in an emergency.
    In closing, transition is the watchword, and the Commission 
intends to achieve it by working with all stakeholders in a 
transparent and responsible manner. Thank you.
    [The prepared statement of Mr. Turetsky follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. Thank you, and thanks to the FCC for their good 
work in this area, and meeting the deadlines.
    We will go now to Mr. Darryl Ackley, who is the Cabinet 
Secretary for the New Mexico Department of Information and 
Technology. Mr. Ackley, thank you for being here today, and 
thanks for your patience. We look forward to your testimony, 
sir.

                   STATEMENT OF DARRYL ACKLEY

    Mr. Ackley. Well, good morning, Mr. Chairman, Ranking 
Member, members of the subcommittee. Thank you as well for the 
opportunity to be here today to present on the status of the 
project in New Mexico in public safety broadband. Excited to be 
here today. I am the Chief Information Officer for the State of 
New Mexico, and Cabinet Secretary over the Information 
Technology Department, appointed in February of 2011 by 
Governor Susanna Martinez when she took office. I also serve as 
the representative from the National Association of State Chief 
Information Officers to the FirstNet Public Safety Advisory 
Committee, but asked to be here today to update specifically on 
the activities within the State of New Mexico.
    A little bit of background, the IT Department in New Mexico 
is the enterprise service provider for the State, in 
traditional domain, but we also operate the Public Safety Land 
Mobile Radio Communication Network for our State's first 
responders and officials, to include a fairly large tower 
asset, and land mobile radio component. We operate that in a 
chargeback manner, and provide hopefully great service for our 
citizens in the State.
    In 2010 New Mexico was one of the applicants and recipients 
of a BTOP grant to build out both additional digital microwave 
infrastructure within the State, but also to deploy a pilot 
broadband program, LTE, within the 10 megahertz of spectrum 
that were dedicated for public safety under the Public Safety 
Spectrum Trust. In 2011, when I took the office, we 
incorporated that into a comprehensive plan to modernize public 
safety communications within the State of New Mexico along 
three areas. One, having a resilient and robust backhaul 
infrastructure. This is towers, et cetera. The second, to 
address critical gaps in our State's land mobile radio 
communications. But the third, and in line with our BTOP grant, 
to deploy public safety broadband within the State, and we saw 
these three as being very compatible with one another.
    As part of that plan, we began work in earnest on the tower 
upgrades, which are nearly complete, providing us a digital 
microwave backbone. At the juncture we were about to deploy in 
the LTE for the public safety broadband, of course, in 2012 was 
when the Spectrum Act was passed, creating FirstNet, and 
opening the D block for use by that entity. Our grant was 
partially suspended in that regard in the LTE while the 
FirstNet board was brought into being, while they organized and 
got moving.
    In December of 2012, so about a year ago, we were visited 
by board members Jeff Johnson and Sue Swenson to review our 
BTOP program, as they visited all the BTOP waiver recipients. 
At that time we presented our original plan for a build-out in 
that LTE spectrum, but also provided some alternative plans to 
work with the board through, in case they wanted to see some 
different options. We presented a pilot project build-out along 
the Southwest border that we thought could have some impact in 
our State, but also provide some valuable learning conditions 
to the board. Then that had quite a bit of resonance, so from 
that point on we began working with the FirstNet board, as well 
as with folks at NTIA and FCC to develop that into a pilot 
project, as well as begin negotiations with the FirstNet board 
for a lease in the spectrum so that we could begin to build 
that out.
    Over the course of about 6 months we iterated with them, we 
worked through that negotiation. Of course, you know, any 
negotiation has its ups and downs. New Mexico very much wanted 
to make sure that what we had in place would serve our 
citizens, and our constituents, but also give us flexibility, 
and, I am sure with FirstNet, give them the flexibility that 
they needed. I am proud to say we accomplished that. We have a 
non-exclusive State-wide lease in that spectrum, and are 
working towards developing the RFP to proceed with the 
Southwest border project.
    We have been granted that lease with three key learning 
conditions that, in conjunction with the FirstNet board, we 
developed for that build-out. And those key learning conditions 
are, one, demonstrating the ability of, you know, cross-
jurisdictional interaction by working with the deployed corps 
in Harris County, Texas. The second being looking at the 
frequency issues, the spectrum issues, associated with 
operating on the U.S.-Mexico border, and what that is going to 
mean on a larger scale as the FirstNet build-out rolls out. And 
then, third, the opportunity to potentially incorporate Federal 
users onto that system as we deploy, given the presence of 
Customs and Border Patrol, Immigrations and Customs, and other 
Federal operations along that boundary. So, at that point, we 
are working on publishing the RFPs to start the first phase of 
this operation, and hope to begin that in the First Quarter of 
2014.
    With that, my time is about up, and I would love to answer 
any questions that you have later.
    [The prepared statement of Mr. Ackley follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. All right, Mr. Ackley, thank you very much. We 
look forward to learning more about the experience that New 
Mexico has had. Sounds like it has been a good one. Mr. Davis, 
we are delighted to have you here. Mr. Stu Davis is a State 
Chief Information Office and Assistant Director of the Ohio 
Department of Administrative Services. We are very appreciative 
that you were able to join us, and we look forward to your 
testimony too, sir. Thank you.

                     STATEMENT OF STU DAVIS

    Mr. Davis. Well, thank you very much, Chairman Walden, 
Ranking Member Eshoo, and members of the subcommittee. Thank 
you for the opportunity to testify on FirstNet and the 
nationwide Public Safety Broadband Network Initiative. My name 
is Stu Davis. I currently serve as the Ohio State Chief 
Information Officer, and the Assistant Director of the Ohio 
Department of Administrative Services. As the State CIO, I 
lead, oversee, and direct State agency activities related to 
information technology development and its use. As Assistant 
Director of DAS, I oversee the Office of Information 
Technology, which delivers information technology and 
telecommunications services to State government agencies, 
boards, and commissions. I also serve as the Chair of the 
Multi-Agency Radio Communication Systems, MARCS, on that 
steering committee, which is Ohio's land mobile radio system 
that supports voice and data communications of statewide public 
safety and emergency management. I also chair Ohio's Emergency 
Service IP Network, ESINet, steering committee, focused on 
Ohio's Next Gen 911 solution.
    The Ohio General Assembly had concerns about FirstNet, and 
passed Senate Concurrent Resolution 15 earlier this year. 
Specific concerns were around the business plan, the costs the 
State would bear, either mandated or obligated, the ability to 
opt-out with no cost if not appropriate for Ohio, to have 
written assurances that it would meet, exceed current levels of 
service in the areas of reliability, redundancy, and State-
based system control, as well as fair market compensation for 
access and utilization of State-owned assets in support of 
network deployment. It called for this subcommittee to continue 
these meetings, and we commend you for doing so. Thank you.
    FirstNet outreach has significantly improved, and is more 
consistent than we have seen in the past, which is great. We 
still have questions regarding requirements, user community 
rules and responsibilities, the overarching business case, and 
defined businesses and operational models, and, of course, near 
and long-term funding. We need to have further insight into 
these components so we can properly plan for future 
initiatives.
    It is important that FirstNet views relationships with the 
States as a partnership, and that continues. Currently the 
planning grants available to States are focused on outreach and 
education. For FirstNet to be successful, they need to focus on 
the development of those relationships with the State, 
modifying their approach to be one of engagement, not product 
marketing to States. An example of partnering would be strong 
engagement on the requirements, and a definition of roles and 
responsibilities. It would make sense to have individual State 
discussions, and perhaps negotiate these terms, before 
releasing an RFP to build out FirstNet. If this does not take 
place, there will be very little time for the States to react 
and determine the best path forward. If we are not part of 
those negotiations of those details of a blanket RFP prior to 
its release, it will be detrimental to both parties.
    There are numerous requirements that need to be defined 
before architecting a solution. This runs the gamut from user, 
to technical, to operational requirements. It is difficult to 
architect a solution to undefined user requirements, and 
without clear expectations. FirstNet needs to be extremely 
sensitive to the fact that moving full steam ahead on 
identifying the technical aspects of the system several months 
before regional outreach positions are in place can be a little 
risky. Choosing technical specifications in the absence of 
understanding the needs of the State could also be detrimental 
to the long-term viability of the network.
    We need to know these requirements and understand what the 
impact of these efforts will have on existing Ohio initiatives. 
In Ohio, this would be MARCS. It would also be the 
consideration of other statewide initiatives, such as Next 
Generation 911, which should be viewed as a component of 
FirstNet. Several States, including Ohio, have stated that 
current Next Gen design efforts must integrate with FirstNet in 
the future. Understanding the impact on MARCS, as well as Next 
Generation 911, is critical to our planning process.
    We would also like to see the business model. I understand 
the difficulties there, but it is critical for us to be able to 
understand the sustainability of the effort that we have going 
forward. Building the cost recovery and usage rates will be 
instrumental in the adoption of the effort. The answer I get 
is, build, and ongoing costs will be supported through 
partnerships with the State, and subscription from early 
adopters. I don't believe this is sustainable. Someone has to 
pay for operations while adoption ramps up and takes place.
    The concern would be the responsibility for the operational 
costs, and, more to the point, adoption of MARCS, at $20 a 
month, gets significant pushback from some of our user 
community. Volunteer firefighters push back on $240 a year to 
have an operational radio on our system. How will they pay for 
both? I would like to better understand these aspects before we 
can move forward a little bit.
    Again, with the capital investment from Federal Government, 
where is the revenue to sustain the FirstNet operations in each 
State? The interpretation of public safety use only must be 
clearly defined. Without the revenue from broad secondary use 
of excess capacity, the model may not be sustainable.
    In Ohio we are working through IT optimization efforts to 
align all our IT assets, resources, and current expenditures to 
reduce duplication of effort and increase efficiencies of the 
benefit to the citizen. A key of this is adoption and 
leveraging of past investments. We are expending dollars today 
to support law enforcement and first responders. These past 
investments, I mentioned MARCS and Next Generation 911, there 
has to be a path forward to protect those current and previous 
investments so that these systems are integrated and leveraged. 
We need to be able to plan and forecast impacts and direction 
of current efforts to be able to align with FirstNet. 
Understanding the operational costs and potential costs to the 
user community will be directly related to law enforcement and 
first responder adoption.
    I understand that FirstNet will also leverage, or attempt 
to leverage, existing vertical assets the State currently owns, 
lease, or is carrying debt on. There are financial, legal, 
jurisdictional issues regarding use of existing State, local, 
and private assets. There are numerous bonding and legal 
considerations that must be thought through for many States.
    We continue to have concerns about funding, and it is 
important to note that, after having said all these things, I 
am supportive of the concept of the Nationwide Public Safety 
Broadband Network, and I believe Ohio is uniquely positioned to 
take advantage of the significant opportunity to coordinate and 
converge multiple efforts. These efforts include MARCS, as well 
as the Ohio Next Generation System, and I look forward to the 
opportunity to partner on this effort and ensure impacts to 
current initiatives are in alignment with Ohio's direction.
    Thank you very much.
    [The prepared statement of Mr. Davis follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. Mr. Davis, thank you for your testimony. I 
think you have summed it up well. We all want it to work, and 
be affordable, and that is what we are striving to get to.
    Mr. Dereck Orr is the Program Manager, Public Safety 
Communications Research, Office of Law Enforcement Standards, 
National Institute of Standards and Technology. That is a long 
title. But we are glad you are here, and we look forward to 
your testimony, sir. Please go ahead.

                    STATEMENT OF DERECK ORR

    Mr. Orr. Thank you very much. Chairman Walden, Ranking 
Member Eshoo, members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the 
advancement of public safety wireless communications. I serve 
as the Program Manager for the Public Safety Communications 
Research Program, which is a joint effort between the National 
Institute of Standards and Technology and the National 
Telecommunications and Information Administration at the 
Department of Commerce Labs located in Boulder, Colorado.
    The Public Safety Communications Research Program serves as 
the technical lead for several administration initiatives 
focused on public safety communications. Our longest standing 
program sponsor is the Department of Homeland Security's Office 
of Interoperability and Compatibility within the Science and 
Technology Directorate. The PSCR program is also involved in 
many of DHS's communications interoperability related programs, 
including the SAFECOM program within the Office of Emergency 
Communications. Additionally, PSCR is sponsored by the First 
Responder Network Authority to advance public safety broadband 
communication standards, and is developing additional research 
projects related to public safety broadband communications that 
the PSCR is uniquely qualified to execute. NIST greatly 
appreciates as well the confidence that Congress placed in NIST 
by allocating critical funding for public safety communications 
research and development in the legislation that established 
FirstNet.
    Working alongside our Federal partners, the PSCR program 
has played the lead technical role in key advancement in public 
safety communications over the last decade. In 2010 the PSCR 
program, in partnership with DHS, deployed in the Boulder area 
a first-of-its-kind fourth-generation, long-term evolution, 700 
megahertz public safety broadband demonstration network. This 
network was developed in collaboration with industry through 
cooperative research and development agreements between NIST, 
NTIA, and over 75 individual industry partners to date. This 
public/private partnership has resulted in one of the most 
vendor diverse 4G LTE networks in the world. The demonstration 
network allows PSCR to test and evaluate key broadband features 
critical to public safety, including multi-vendor 
interoperability, indoor, in-building coverage, and extended 
cell coverage possibilities for rural areas. In addition, 
future work will focus on priority access and quality of 
service for the network.
    As part of PSCR's modeling and simulation efforts, PSCR 
conducts performance analysis of advanced communications 
networks using commercially available and in-house customized 
modeling simulation tools. In support of a nationwide public 
safety broadband network, PSCR develops metrics and tools used 
to characterize the performance of LTE networks, which will 
help inform decision-making about network design.
    PSCR continues to lead the requirements development efforts 
for the public safety broadband, working directly in support of 
the National Public Safety Telecommunications Council. NPSTC's 
broadband working group has developed requirements documents 
for mission critical voice, local control, and priority and 
quality of service that clearly define public safety's 
expectations of the nationwide broadband network capabilities.
    In December 2012 NPSTC delivered the public safety 
broadband launch requirements to the FirstNet Board of 
Directors and the Public Safety Advisory Committee. The launch 
requirements define public safety's expectations for the 
nationwide network at launch. More recently, NPSTC delivered 
push-to-talk over LTE requirements to FirstNet. Current 
requirements efforts focus on the definition of public safety 
grade as it applies to the nationwide broadband network. These 
requirements documents are used as the fundamental basis of 
PSCR's formal standards development efforts related to LTE on 
behalf of FirstNet and the public safety community. Based upon 
testing and evaluation, modeling and simulation, and 
requirements gathering efforts, all of which inform the 
standards development effort at PSCR, there have been 
significant advances in the commercial LTE standards specific 
to public safety.
    In December 2012 public safety was identified as the number 
one priority for the current version of LTE standards being 
developed within the third generation partnership project, 
which is the official standards development organization for 
LTE. This is a major accomplishment, given public safety's 
limited user base, compared to the worldwide commercial 
wireless user base. With this added momentum, and as part of 
the NPSTC mission critical voice requirements, PSCR is 
addressing the two largest gaps identified in LTE's ability to 
support mission critical voice capabilities, which are direct 
mode, device-to-device communications, and group 
communications. PSCR also has recently launched an effort to 
standardize mission critical push-to-talk LTE within 3GPP.
    And, finally, working in the international standards 
community, alongside public safety from other countries, will 
lead to a global public safety LTE marketplace. This should 
decrease costs, while increasing the availability of advanced 
features to the worldwide public safety community.
    In conclusion, PSCR will continue its public safety driven 
approach to advancing communications technologies for our 
Nation's first responders, and we look forward to continuing 
and expanding our valuable partnerships across public safety, 
local, State, tribal, and Federal Government organizations, as 
well as industry. Again, I am honored to be here before the 
subcommittee today, and I am happy to answer any questions you 
might have.
    [The prepared statement of Mr. Orr follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. Mr. Orr, thank you for your testimony, we 
appreciate that.
    And now, because we have a lot of doctors before our 
committee, we can't have a hearing without at least a doctor on 
the panel, Dr. Dennis M. Martinez, Chief Technology Officer, RF 
Communications Division, Harris Corporation. Dr. Martinez, we 
are delighted to have you here, and we look forward to your 
expert testimony.

                  STATEMENT OF DENNIS MARTINEZ

    Mr. Martinez. Good morning, Mr. Chairman, Ranking Member 
Eshoo, and members of the subcommittee. Thank you for inviting 
me to testify today on FirstNet, and the advancement of public 
safety wireless communications. I previously testified before 
this committee on May 21 of 2011, during the hearing on 
creating an interoperable public safety broadband network. Last 
year I served as an appointed member of the Technical Advisory 
Board for First Responder Interoperability. In that role, I 
joined leaders representing State and local governments, public 
safety entities, wireless service providers, and equipment 
manufacturers in developing the recommended minimum technical 
requirements to ensure nationwide interoperability for the 
National Public Safety Broadband Network. These requirements 
were conveyed by the FCC to FirstNet, and, as required by law, 
will be incorporated in future RFPs issued by FirstNet.
    I am here today to provide this committee with a technical 
perspective on FirstNet's mission and activities, with the goal 
of informing the committee on areas of progress since passage 
of the landmark legislation last year. There are four 
activities that I will address, pilot projects, standards of 
development, regulatory policy, and response to FirstNet 
inquiries.
    Since January 2012, Harris has implemented pilot LTE 
projects in five jurisdictions. Most recently, Harris conducted 
live demonstrations of a deployable solution in remote Northern 
California that is not served by commercial broadband networks. 
These pilot projects utilized public safety broadband spectrum, 
and were implemented almost entirely at Harris expense, and we 
received support from the FCC and the FirstNet team, who 
facilitated and approved short-term spectrum use 
authorizations.
    We had several objectives for launching these projects. 
First, we aimed at creating a learning experience for public 
safety entities that wanted firsthand knowledge of the exciting 
prospects promised by the eventual broadband network. 
Additionally, we sought learning experiences that would advance 
our own understanding of how to apply this State of the art 
commercial technology in a mission critical setting. Our 
findings were simple, but profound.
    First, while there were many public safety entities that 
currently use commercial broadband networks in day-to-day 
operations, the prospect of a dedicated network optimized for 
their mission critical needs is highly valued. In fact, many of 
these entities are anxious to support deployment of the 
broadband network in their jurisdiction. Secondly, commercial 
LTE technology can be configured, through rigorous design 
practices, to support some mission critical needs today. The 
key gap that currently exists is mission critical voice. 
Notwithstanding that, we successfully demonstrated technology 
that permits interoperability between legacy and mission 
critical radio systems, and services that operate over Band 14 
LTE.
    And that brings me to the second topic area, which is the 
development of standards that will support mission critical 
voice on the broadband network and enable nationwide 
interoperability. Several activities are underway in 3GPP, TIA, 
and ATIS that are addressing this need. Under the Spectrum Act, 
FirstNet must represent the interest of public safety users in 
these standards development activities, and to do so in 
consultation with the director of NIST, the FCC, and the Public 
Safety Advisory Committee. Although not explicitly noted in the 
Spectrum Act, we also believe there is significant benefit for 
FirstNet to consult and collaborate in this process with 
private sector entities likely supplying the required products 
and services that implement these emerging standards.
    In addition to the development of standards, continuing 
evolution of the regulatory framework for FirstNet will be 
important to its success. As a manufacturer of LTE user 
equipment, Harris is pleased with the significant milestone 
that was achieved earlier, when the FCC released the first 
iteration of Band 14 service rules. These rules are a 
significant step, and one that is required for OEMs to continue 
their investment in products and technologies that FirstNet 
will need in its deployment, and first responders will need in 
order to operate on the NPSBN. Toward that goal, and in advance 
of these final requirements, we note that FirstNet has done 
significant work to require their early build-outs are 
interoperable, and should be commended for supporting efforts 
to make procurements for these projects competitive and multi-
vendor.
    Finally, we commend the FirstNet team on their significant 
success and progress in their RFI process. That has given us, 
the private sector, a significant window of visibility into 
potential requirements for equipment and services that they 
will procure. As FirstNet completes its State and local 
collaboration and begins finalization of the technical 
requirements for the broadband network, we encourage FirstNet 
to engage the private sector at each opportunity. This is an 
essential step for continued investment by the private sector 
in FirstNet, which, in turn, is important for timely 
availability of products and services that FirstNet will need 
to procure.
    In closing, I once again thank the committee for inviting 
me to testify on this matter of great importance to the 
American public. Harris remains eager to support FirstNet, and 
this committee, to make this happen. Thank you very much.
    [The prepared statement of Mr. Martinez follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. Thank you, Dr. Martinez, we appreciate your 
testimony. We will go to questions now.
    Mr. Ginn, in my opening statement I expressed a concern we 
have heard from a number of potential partners and 
stakeholders, namely that FirstNet doesn't seem to know what it 
wants to be. I don't mean that as a personal criticism. It is a 
question I think I would like to get to Mr. Ackley and Mr. 
Davis. One State says, we are good to go, and it all worked 
well. The other State is saying, I am not so sure, and what 
this is going to mean in the long-term costs and implications.
    And so I guess my question would be, can you tell us what 
is FirstNet's plan to realize this network?
    Mr. Ginn. Well, that is going to take a few moments. First 
off, on the principle of working with other States, from our 
point of view, needs to be a joint effort.
    Mr. Walden. Um-hum.
    Mr. Ginn. It should be jointly negotiated. When we reach 
the point where we have completed the RFP and presented to the 
States, there will be no surprises in Ohio as to what is in 
the----
    Mr. Walden. So let me stop you there for a second, because 
that was one of the issues Mr. Davis raised, is how that 
communication on the RFP will take place. Correct, Mr. Davis?
    Mr. Davis. That is correct. I think what we want to make 
sure of is that the collaboration piece stays in place, and 
that those technical documents that go out to----
    Mr. Ginn. And, by the way, I agree with that. As a----
    Mr. Walden. OK.
    Mr. Ginn [continuing]. Matter of fact----
    Mr. Walden. Good.
    Mr. Ginn [continuing]. If you look at our work plan for 
2014, we are establishing 10 regional offices that complement 
FEMA areas, and their sole responsibility is going to be 
working with States in coming up with radio access networks to 
feed into the national grid. So maybe one of the issues here is 
his expectation is beyond our ability to deliver. But when you 
think about, it takes 4 to 8 months to hire a single employee 
in the Federal Government. You don't get these things done that 
quickly.
    So my comment to Mr. Davis would be, work with us. We want 
to do this as partners. Hopefully, at the end of this, we will 
have agreed on a network plan for Ohio. And when it is 
presented, you will know all the details, even before it is 
presented----
    Mr. Walden. So the other issue that I believe you raised, 
Mr. Davis, was the long-term financial stability of FirstNet, 
kind of what you are buying into, and what it is going to cost 
you long-term, right? And what about State assets? Do you think 
you are going to be asked to put all your assets in the pot and 
say goodbye to them, and then be part of FirstNet with an open 
ended cost, potentially, down the road? Is that the concern 
Ohio has?
    Mr. Davis. I think it has a variety of different components 
to it, and I think we just have to work through those things. 
And----
    Mr. Walden. Uh-huh.
    Mr. Davis [continuing]. It is sort of a step-by-step 
process. And every State is going to have similar issues, in 
terms of leveraging existing assets, even if it is----
    Mr. Walden. Uh-huh.
    Mr. Davis [continuing]. Lease space, and things that we 
have going on. And phase two of the planning grants that are 
out there will hopefully address some of those things. But the 
questions that we get when we go out and do the outreach 
components within Ohio all come back to, what is the cost? We 
recognize that we don't know those things today----
    Mr. Walden. Right.
    Mr. Davis [continuing]. But the more that we can have a 
sustainable business model at least--to their process, the 
better off we are all going to be in the long run.
    Mr. Ginn. To give you some idea of the complexity of this, 
70 percent of the cost of the network is going to be in cell 
site locations, OK?
    Mr. Walden. Right.
    Mr. Ginn. It is a high percentage. It matters in the total 
economics. If----
    Mr. Walden. Of course.
    Mr. Ginn [continuing]. We could get each State and the 
Federal Government to allow us to use those without fees, it 
would dramatically reduce the cost of this network, OK? Now, he 
would----
    Mr. Walden. Well, that was one of our original ideas, I 
think, was to build from the State up, and not create a 
separate set of systems, but----
    Mr. Ginn. Well, I guess the way I would say that, maybe a 
little differently, we have to start out with a core that 
covers the entire United States, and then we have to make sure 
that----
    Mr. Walden. Um-hum.
    Mr. Ginn [continuing]. State systems are comparable----
    Mr. Walden. Interoperable.
    Mr. Ginn [continuing]. With connecting into that core, 
around interoperability, and security, and reliability, and all 
the other issues that we will mandate.
    Mr. Walden. Um-hum. So, Mr. Ackley, in the 11 seconds I 
have left, what gave you confidence in your State to go ahead 
and enter into this arrangement?
    Mr. Ackley. Well, Mr. Chairman, I think the fact that New 
Mexico had done some substantial work in this arena before the 
passage of the Spectrum Act, so this was something that we were 
already incorporating into our planning, and working towards. 
And I think that gave us a position to be able to work with the 
FirstNet board from some assumptions we had developed early on, 
with respect to----
    Mr. Walden. And you are comfortable with the long-term 
potential cost implications, and the ability to afford 
participation down the road?
    Mr. Ackley. Well, Mr. Chairman, I think there are a lot of 
good points that are raised----
    Mr. Walden. Um-hum.
    Mr. Ackley [continuing]. Here that need to be addressed. 
You know, comfort is something that is going to increase, I 
think, as these issues are addressed. You know, things such as 
asset----
    Mr. Walden. Um-hum.
    Mr. Ackley [continuing]. Cost allocation and recovery, 
the----
    Mr. Walden. Right.
    Mr. Ackley [continuing]. Usage, the business model, and 
those sorts of things. I think, from our position, it is 
something, if we can maintain the involvement as a State, and 
working with FirstNet on this----
    Mr. Walden. Right.
    Mr. Ackley [continuing]. That we can continue to develop 
that comfort.
    Mr. Walden. All right. My time has expired, and I am going 
to turn the gavel over to Mr. Latta, and I am going to 
recognize Ms. Eshoo for questions. I have to excuse myself to 
take a meeting. But I want to thank you all, and know that you 
know we are concerned. Want to make sure this all works for 
first responders, and for the country. We commend the work that 
has been done. I know it is a huge startup, and we just want to 
continue to do our appropriate oversight.
    I recognize the gentlelady from California.
    Ms. Eshoo. Thank you to each one of you for traveling here, 
and for your excellent written testimony, as well as the spoken 
testimony, and for your patience. Inevitably, when we have, 
what I think, are some of the most important hearings, the 
bells go off, and you have to wait, so thank you for your 
patience.
    Mr. Ginn, thank you for your leadership. This is a heavy 
lift, and it is somewhat complicated. It is not as if we don't 
have any systems in our country. We do. The problem is they are 
not interoperable. And these systems have been in place longer. 
Obviously, they have a history. What we are doing now is really 
rewriting history. And so there is a push and a pull in 
different places. I understand it. Change is not easy to make, 
and it is menacing to people that have done it a certain way 
for a long, long time. I don't hold it against them, but I 
think the signal is, you know what? We are on the move. This 
has to change. It has to change because of what our country 
endured.
    So thank you for your leadership, and I think that your 
credentials from the private sector are superb. And I don't 
want to say it is good to hear about your frustrations, but it 
also demonstrates that it is difficult to merge the public and 
the private. But I have confidence in you, I really do.
    Now, in September the FCC, Mr. Ginn, announced, you know, 
this landmark voluntary industry solution to achieve 
interoperability in the lower 700 megahertz band. What I would 
like to know is what steps is FirstNet taking to leverage this 
opportunity, if, in fact, you can, and do you think that the 
agreement is going to provide the first responders with more 
roaming opportunities, and greater redundancy? I am very 
excited about----
    Mr. Ginn. Yes. You are talking about the interoperable task 
force at the FCC that gave us the standards?
    Ms. Eshoo. No. This is the voluntary solution that was 
agreed upon with industry stakeholders. If you are not familiar 
with it, I can go on to----
    Mr. Ginn. Yes. No, maybe----
    Ms. Eshoo [continuing]. Another question. Yes. No, I can go 
on to another question. I have----
    Mr. Ginn. OK.
    Ms. Eshoo [continuing]. 2 minutes and 23 seconds, and a 
trip out to Dulles.
    To Dr. Martinez, thank you for being here again. In your 
testimony you talked about the importance of developing 
standards for mission critical voice, and that is a very, very 
important area. Does the absence of such a standard prevent 
your company from supporting build-out projects? I am not so 
sure, from your testimony, if that is the case. And, you know, 
I mean, the examples would be Los Angeles, or the State of New 
Mexico.
    Mr. Martinez. Congresswoman Eshoo, no, it does not. The----
    Ms. Eshoo. Good.
    Mr. Martinez. [continuing]. Absence of a standard is not a 
pre-requisite to proceed with a BTOP program.
    Ms. Eshoo. Um-hum.
    Mr. Martinez. However, to the extent that such a program 
would have a requirement for mission critical voice, then we 
have to ensure that the implementation of that requirement in a 
BTOP program would not preclude future compatibility with 
whatever FirstNet chooses as a mission critical standard.
    Ms. Eshoo. So it complicates it, is that what you are 
saying?
    Mr. Martinez. I would say it is a factor that has to be 
considered, but----
    Ms. Eshoo. Um-hum.
    Mr. Martinez [continuing]. It should certainly not be a 
showstopper for proceeding with a----
    Ms. Eshoo. Good.
    Mr. Martinez [continuing]. BTOP project.
    Ms. Eshoo. OK.
    Mr. Martinez. And, by the way, not all BTOP projects would 
necessarily require a----
    Ms. Eshoo. Um-hum.
    Mr. Martinez [continuing]. Mission critical voice 
component.
    Ms. Eshoo. Good. Back to Mr. Ginn, you know that I have 
been involved in Next Generation 911, the 911 issues, going 
back to the '90s, obviously long before our country was 
attacked. Do you see the Next Gen 911 being integrated into 
what FirstNet is doing?
    Mr. Ginn. I absolutely do. As I understand, Next Gen 911, 
you are not only going to be able to take voice, but you are 
going to be able to take data----
    Ms. Eshoo. Um-hum.
    Mr. Ginn [continuing]. Photographs, and other capabilities. 
Well, guess what, LTE is data-centric. It has a great 
capability to transmit data. And so, the way I see it, very 
simply, is information coming into the 911 centers can very 
easily be sent right to a law enforcement officer at a point in 
the district in seconds.
    Ms. Eshoo. That is----
    Mr. Ginn. So----
    Ms. Eshoo [continuing]. Wonderful. So it will be----
    Mr. Ginn. Yes. I just see us as a real enabler to adding 
benefits to Next Generation.
    Ms. Eshoo. Bravo. Thank you. Yield back.
    Mr. Latta [presiding]. The gentlelady from California 
yields back, and the Chair recognizes himself for 5 minutes.
    And, again, thanks very much for you all being here today. 
Really appreciate your testimony, and it is very informative 
because, when we had the hearing earlier this year to find out 
where we have gone and come from that timeframe.
    And, Mr. Davis, if I could ask you a few questions, 
especially coming from the Ohio perspective? Some of the things 
that were brought up, especially by the folks that were here 
earlier this year from Maryland and Virginia, and their 
concerns, just to get your perspective as to where you think 
things are, and where they were earlier this year. And in your 
testimony, when you talk about the partnership versus the 
customer, and particularly on the partnering, you said it would 
be stronger engagement on the requirements and the 
determination of roles and responsibilities. Do you see that 
things have tightened up, that there is more back and forth 
between FirstNet and the States, and that you have a contact 
out there that you can get to all the time?
    Mr. Davis. Yes, we do. We have made significant progress. 
FirstNet, in the outreach component, has done an excellent job. 
Their message is consistent, and there is a point of contact 
for us. As a matter of fact, I believe we have a meeting on 
Friday of this week. So the communication piece is moving 
forward very well, that component of it.
    And the point that we just need to make sure we understand 
is that we are making decision at the State level on a variety 
of different initiatives that we have going on, Next Generation 
911 being one, and the architecting of that. If there are 
things that we can do that will better position our initiative 
in Ohio to support FirstNet, and vice-versa, those are the 
types of activities that we want to talk through.
    Mr. Latta. Well, I think also you mentioned in your 
testimony the planning and development, especially in the State 
of Ohio. And the 11 years that I served in the General 
Assembly, working on the MARCS system at that time, there was a 
lot of discussion about the cost, et cetera, and also the LMR. 
Is that being considered and taken in to account, especially 
for the amount of money that Ohio has invested over all those 
years, especially, like, in MARCS?
    Mr. Davis. I think absolutely it is. I think that it is the 
mission critical piece that we have. There are 1,300 different 
disparate systems that we are trying to push forward to move 
into MARCS as a shared service model. Very similar, I would 
imagine, to some of the things that we are hearing from 
FirstNet. And we would like to engage and partner in that, 
because we have partnering tiers that we set up that would be, 
I think, valuable for FirstNet to understand how we are 
operating today.
    Mr. Latta. And pardon me for interrupting, but you said you 
would like to. Are you being taken into those discussions? 
Because you said like to. Is that that you are or aren't 
getting that information in those discussions?
    Mr. Davis. I think those things are starting now. They 
started about 3 months ago. We didn't get the grant for the 
planning side through our controlling board process until 
September. So things in the last month have moved quickly. In 
the last 6 weeks, things have been significantly better, and 
that communication is ramping up.
    Mr. Latta. Well, not just wanting to pick on you here, 
especially in your testimony, you are talking about especially 
the volunteer firefighters. And the pushback, as you say in 
your testimony, on the $240 a year to have an operational radio 
on our system in Ohio. And I tell you, I know, with my 14 
counties, and the backbone out there is that volunteer fire 
department.
    And, you know, I go to a lot of chicken barbecues, and 
pancake days, and fish fries, and for all of the things that 
those folks are doing out there to protect their friends and 
neighbors, you know, they just can't take a lot of mandates out 
there. So, you know, where are the dollars going to be coming 
from for those folks out there across the State of Ohio, and 
across the Nation, for these volunteers to pay for this?
    Mr. Davis. What a great question. It is something we 
wrestle with all the time with the MARCS system today, as you 
well know. We are looking at everything that we can possibly do 
to try to lower those costs as much as possible. A lot of that 
is economy of scale, and the more municipalities, the more 
counties that come on board to the radio system will drive 
those costs down, and make that at least a little bit more 
affordable.
    I know that we are looking at different ways to try to 
figure out how to crack that volunteer component, because $240 
a year doesn't sound like much, but when you have 10 
volunteers, that is a lot of money. And at some point in time, 
those events happen, we need to engage with those people, and 
it is critical to the response in that area.
    Mr. Latta. OK. Just real briefly in my last 20 seconds, on 
that economy of scale, when you are looking at the economy of 
scale, are you talking about, like, for the volunteers across 
the State, or are you looking at particular areas in the State 
of Ohio?
    Mr. Davis. We are looking at the volunteers across the 
State of Ohio, but we are also looking at the 1,300 different 
disparate systems out there as they fold in. And we have got 
quite a bit of success here in probably the last 8 months in 
getting counties, and their radio systems, into our system and 
leveraging their assets, and some of the assets that we have, 
to benefit both the county, as well as the statewide effort 
that we have going on.
    Mr. Latta. Thank you. My time has expired, and I recognize 
the gentleman from Illinois, Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. Thank you for being 
here. I, along with Anna, have been working in the first 
responder issues for a long time, and 911, so we are pleased we 
are here. Some of us would have liked to have gotten here a 
different way, but this is the rules of the road now. And so, 
Mr. Davis, compelling testimony, because your folks are my 
constituents. I represent 1/3 of the State.
    And so, Mr. Ginn, I hope you really take heed to some of 
these concerns in Mr. Davis's opening, and his testimony. I 
keep highlighting, and he makes some compelling arguments. And, 
you know, we work for those volunteer fire departments, or 
those small communities, and we have to get this right. You 
have great success in the private sector, and I always wonder 
when the private sector experts come to government, and how 
they get chewed up in the bureaucracy. I mean, you gave a great 
example of the 4 months in hiring an employee. I mean, that is 
government, and that makes it challenging.
    But your opening statement was right on. You have got to 
get it built, and you have got to get it built right, and I 
applaud that focus. I would also add you have got to get it 
built within budget. And this business model debate that is 
raised by Mr. Davis, not just at your end, but also down at 
their end, because I know, in this debate, one of the 
underlying things was, don't worry, the government will bring 
you more money if you don't get it right, and I don't think you 
can assume that.
    Mr. Ginn. Can I respond?
    Mr. Shimkus. Yes. Please.
    Mr. Ginn. Yes. You know, I take the $7 billion as a 
personal and organizational challenge. And, if you have a 
moment, let me tell you how I think about it, because----
    Mr. Shimkus. I want to get to LTE too, so, yes, I do have a 
moment, but don't----
    Mr. Ginn. OK.
    Mr. Shimkus [continuing]. Take my 3 minutes.
    Mr. Ginn. OK. You know, the first thing you need to 
understand, what is the cost of the network? And you are going 
to spend a lot of time trying to drive down the cost of that 
network, as I was suggesting about free cell sites in States 
and Federal buildings.
    Mr. Shimkus. Right.
    Mr. Ginn. Because that would dramatically decrease the cost 
of providing the network. You have got a couple other costs. 
You have got to stand up an organization. We are doing that 
now. We are putting people in 10 regional offices to work with 
Ohio and other places. And then we will reach a point----
    Mr. Shimkus. Let us just go here and say you are going to 
do your utmost to have an efficient system that is going to be 
cost-effective, and you are going to try to deploy what has 
been requested----
    Mr. Ginn. Yes. And the point I want to make to you is 
simply this, that if we get to the bottom line, and we are not 
there, we are going to reiterate the whole process and look to 
take out other costs. So----
    Mr. Shimkus. Right. I just raise that because there is a 
concern, not just at your level, at the local level, and we 
have got to get the costs right too, otherwise we are not going 
to be where we want to be.
    You did talk about LTE, and the great technology, and the 
data stuff, but mission critical voice is also an important 
aspect of this debate. Can you explain FirstNet, this is also 
for Mr. Orr, on, obviously, the voice aspect of this, that is 
part of the application with NIST, and where are at with that?
    Mr. Orr. So, just to be clear, NPSTC defined mission 
critical voice, and that is a group of public safety 
associations, as the ability to talk directly from one device 
to another, so direct mode, push-to-talk, like public safety 
uses now with their radios, full duplex voices, which is how we 
talk on our cell phones right now, where you can talk over each 
other, group call, so that you talk one to many, talker 
identification, like caller ID, emergency alerting, so I hit a 
button, and I get automatic access to the network if I am in an 
emergency situation, and audio quality, so that you can 
actually hear me in difficult environments, like firefighters 
and police often work in.
    The most challenging aspects for mission critical voice 
right now are really the top three, which are dealing with 
push-to-talk capability, group communications, and direct mode 
device-to-device, because those aren't issues that are being 
dealt with by the commercial community right now. So that is 
what we are working in LTE, and that is where we have had, 
actually, very significant progress on the LTE standards. And 
we are working closely with the other countries around the 
world that are also deploying their own public safety LTE 
networks, because every single one of them needs this mission 
critical voice capability.
    So our expectation, at least from a PSCR perspective, is 
within the next 18 to 24 months, we would like to start seeing 
prototypes in our laboratories that display this capability, 
that we can at least start assessing, testing, and, as Chairman 
Ginn said, reiterating on the standards to ensure that these 
products someday actually meet the capabilities of the current 
land mobile radio systems.
    Mr. Shimkus. Great, and I will just end on this. The 
Seattle Times, of all papers, wrote an article about the 
tornadoes that went through my district, and a lot of the 
Midwest, Ohio and Indiana, and how people's lives were saved 
through the communication to their cell phones and the like. 
Obviously, the people didn't have access to that, may not have 
got as clear a warning as they could have, but we are getting 
there. But there is concerns about the top down, the business 
model, and I would hope you work with our local providers, 
because they are the key to this, making it work.
    Mr. Ginn. If you take nothing else away from here, you need 
to understand that I understand that if you don't satisfy your 
customers, you don't have a business.
    Mr. Shimkus. Amen. Yield back.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back the balance of his time. And, for Chairman Walden, and 
also for Ranking Member Eshoo, we want to thank you again for 
your testimony today, and your patience when we had to go to 
vote. We greatly appreciate that.
    And, if there is nothing further come before the committee, 
the subcommittee will stand adjourned.
    [Whereupon, at 1:07 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC] [TIFF OMITTED] 

                                 <all>
</pre></body></html>
